        COOPERATIVE THREAT REDUCTION PROGRAM


Report No. D-2001-074                      March 9, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports, or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

CTR                   Cooperative Threat Reduction
DTRA                  Defense Threat Reduction Agency
FSU                   Former Soviet Union
GPRA                  Government Performance and Results Act
PDASD(STR)            Principal Deputy Assistant Secretary of Defense (Strategy and
                         Threat Reduction)
SLBM                  Submarine-Launched Ballistic Missile
SSBN                  Nuclear-Powered Ballistic Missile Submarine
START                 Strategic Arms Reduction Treaty
WMD                   Weapons of Mass Destruction
                       Office of the Inspector General, DoD
Report No. D-2001-074                                                     March 9, 2001
   (Project No. D2000LG-0031.001)

                    Cooperative Threat Reduction Program

                                    Executive Summary

Background. Congress enacted Public Law 102-228, the Soviet Nuclear Threat
Reduction Act of 1991 (the Act), to reduce the threat posed by the weapons of mass
destruction remaining in the territory of the former Soviet Union. Specific objectives
of the Act are to help reduce strategic arms in the former Soviet Union to Strategic
Arms Reduction Treaty levels or lower, enhance security over nuclear weapons and
fissile material, assist the former Soviet Union to destroy and prevent proliferation of
biological and chemical weapons, and encourage military reductions and reform. The
Act designates DoD as the executive agent for what came to be called the Cooperative
Threat Reduction (CTR) Program. From FY 1992 through FY 2000, Congress
appropriated $3.5 billion for the CTR Program.

Objectives. Our audit objective was to evaluate the policies and procedures for
executing the CTR Program. We also reviewed the management control program as it
related to the overall objective.

Results. Overall, the CTR Directorate, within the Defense Threat Reduction Agency
(DTRA), has made steady and consistent progress in destroying weapons of mass
destruction within former Soviet Union countries. Appendix D discusses program
accomplishments. However, the following areas warrant management attention.

The CTR Directorate used more than $64.5 million in program funds to facilitate the
removal of weapons of mass destruction by enhancing the value of salvageable
materials and developing commercial by-products for Russia and Ukraine. As a result
of those U.S. efforts, Russia and Ukraine could generate revenue of about
$72.8 million without agreements on how the revenue should be used (finding A).

The CTR Directorate did not establish adequate performance goals for the
CTR Program. As a result, DoD and DTRA managers could not successfully
demonstrate that the CTR Directorate was executing the CTR Program efficiently and
effectively or identifying opportunities to improve program effectiveness (finding B).

See Appendix A for details on our review of the management control program.

Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Strategy and Threat Reduction) initiate action to address the monitoring and
use of revenue generated from U.S.-funded activities. We also recommend that the
Director, CTR Directorate, prepare cost analyses of methods available to destroy
weapons of mass destruction and monitor the use of revenue generated from
U.S.-funded activities. In addition, we recommend that the Director, DTRA, continue
efforts to improve the “Defense Threat Reduction Agency Strategic Plan 2000.”

Management Comments. The Acting Principal Deputy Assistant Secretary of Defense
(Strategy and Threat Reduction) agreed to initiate action to address the monitoring and
use of revenue generated from U.S.-funded activities. However, the Acting Principal
Deputy disagreed with the amount of additional costs incurred by the United States and
the amount of revenue generated for Russia and Ukraine as a result of U.S. efforts.
Also, the Acting Principal Deputy stated that guidelines already exist that require DoD
to provide assistance economically and efficiently. The Acting Principal Deputy also
stated that identifying specific services in implementing agreements would affect the
flexibility needed in the CTR Program and that Russian and Ukrainian responsibilities
were already addressed in CTR umbrella and implementing agreements, the Strategic
Arms Reduction Treaty, and the Lisbon Protocol and Chemical Weapons Convention.

DTRA expressed concern about draft recommendations that might constrain contract
negotiations, but concurred that the CTR Directorate should prepare cost analyses of
methods available to destroy weapons of mass destruction. DTRA agreed to expand its
strategic plan to cover a 5-year period and include performance goals for the
CTR Directorate. DTRA also stated that the CTR Annual Report to Congress is a
more appropriate place than budget submissions to include overall objectives,
strategies, and explanations of reality-based changes to the CTR Program.

A discussion of management comments is in the Finding section of the report and the
complete text is in the Management Comments section.

Audit Response. Acting Principal Deputy Assistant Secretary of Defense (Strategy and
Threat Reduction) comments were generally responsive. Based on those comments, we
clarified how we determined additional U.S. costs and added qualifiers on the amount
of revenue that Russia and Ukraine could receive as a result of U.S. efforts. We also
deleted or revised draft recommendations to amend implementing agreements. The
revised recommendation is for DoD to initiate action to address monitoring and use of
revenue generated from U.S.-funded activities.

DTRA comments were generally responsive but lacked a completion date. Based on
DTRA comments, we revised a recommendation to provide DTRA with the flexibility
to identify performance goals and indicators in the CTR Annual Report to Congress.

We request that the Assistant Secretary of Defense (Strategy and Threat Reduction) and
the Director, Defense Threat Reduction Agency, provide comments on this report by
May 8, 2001.




                                          ii
Table of Contents

Executive Summary                                                      i

Introduction
     Background                                                        1
     Objectives                                                        3

Findings
     A. Use of Program Funds and Revenue                               4
     B. Evaluating Program Performance                                16

Appendixes
     A. Audit Process
            Scope                                                     23
            Methodology                                               24
            Management Control Program Review                         26
     B. Prior Coverage                                                27
     C. Salvage Value of Submarine Scrap Material                     28
     D. Program Accomplishments                                       31
     E. Monitoring Budget Obligations                                 33
     F. Report Distribution                                           37

Management Comments
     Assistant Secretary of Defense (Strategy and Threat Reduction)   39
     Defense Threat Reduction Agency                                  44
Background
    Congress enacted Public Law 102-228 (22 U.S.C. 2551 (note)), the Soviet
    Nuclear Threat Reduction Act of 1991, to reduce the threat posed by the
    weapons of mass destruction (WMD) remaining in the territory of the former
    Soviet Union (FSU). That law designated DoD as the executive agent for what
    came to be called the Cooperative Threat Reduction (CTR) Program. Along
    with subsequent laws that continue to assist FSU countries in reducing their
    WMD, Public Law 102-228 is also commonly called the “Nunn-Lugar”
    legislation. From FY 1992 through FY 2000, Congress appropriated
    $3.5 billion for the CTR Program. DoD has used those funds to provide
    assistance to Belarus, Georgia, Kazakhstan, Moldova, the Russian Federation
    (Russia), and Ukraine.

    The Soviet Nuclear Threat Reduction Act of 1991 establishes overall parameters
    for the CTR Program. It states that the program can be used to destroy
    chemical, nuclear, and other weapons; transport, store, disable, and safeguard
    weapons in connection with their destruction; and establish verifiable safeguards
    against proliferation of WMD. Also, the Soviet Nuclear Threat Reduction Act
    of 1991 allows DoD to assist in planning and in resolving technical problems
    associated with weapons destruction and proliferation. In addition, it states that
    DoD can fund critical short-term requirements related to weapons destruction
    and should, to the extent feasible, draw upon U.S. technology and technicians.
    In annual National Defense Authorization acts and DoD Appropriations acts,
    Congress expresses its latest preferences for CTR Program expenditures.

    CTR Program Objectives. The major objectives of the CTR Program are to
    help FSU countries accelerate the reduction of strategic (long-range) weapons to
    levels designated in the Strategic Arms Reduction Treaty (START) I and
    START II; enhance safety, control, and accounting for nuclear weapons and
    fissile material; destroy and prevent proliferation of biological and chemical
    weapons; and encourage military reductions and reform.

            Program Management. The Office of the Assistant Secretary of
    Defense (Strategy and Threat Reduction), a component of the Office of the
    Under Secretary of Defense for Policy, develops, coordinates, and oversees
    implementation of policy for the CTR Program. Since October 1998, the
    CTR Directorate, Defense Threat Reduction Agency (DTRA), has managed
    day-to-day operations of the CTR Program. Before October 1998, the
    CTR Program was directed by the Under Secretary of Defense (Acquisition and
    Technology) and projects were managed by the Defense Nuclear Agency, which
    later became the Defense Special Weapons Agency.

           Framework for Assistance. DoD provides assistance to FSU countries
    through umbrella agreements and implementing agreements. Umbrella
    agreements, signed by representatives of the United States and recipient
    countries, establish the overall framework under which the United States
    provides assistance. Implementing agreements, signed between DoD and
    designated executive agents of FSU countries, document the details on the


                                        1
assistance to be provided and the total amount of assistance to be provided.
Generally, the implementing agreements have been amended each year to
increase the amount of assistance to be provided.

         Program Evolution. Since the inception of the CTR Program in 1991,
DoD has changed the level of assistance it provides to FSU countries. Initially,
DoD provided equipment to FSU countries for use in destroying WMD and
improving their infrastructure needed to destroy the WMD. In the mid-1990s,
DoD began to hire U.S. companies to coordinate and integrate the destruction of
WMD because FSU countries could no longer afford to destroy the weapons and
work was falling behind schedule. For some projects, DoD contracts directly
with Russian and Ukrainian companies because Russia and Ukraine are reluctant
to allow U.S. companies daily access to their ship repair yards or missile
facilities.
Projects Reviewed. The audit concentrated on projects managed under the
Strategic Offensive Arms Elimination-Russia and Strategic Nuclear Arms
Elimination-Ukraine programs. Russian projects selected for detailed review
were the liquid propellant disposition and the submarine-launched ballistic
missile (SLBM) launcher and nuclear-powered ballistic missile submarine
(SSBN) destruction projects. The Ukrainian project selected for detailed review
was the SS-24 ballistic missile system destruction project. As of August 2000,
those projects represented $636.2 million of the $1,613.8 million that DoD
expected to expend for Strategic Offensive Arms Elimination-Russia and
Strategic Nuclear Arms Elimination-Ukraine programs through FY 2007.

        Liquid Propellant Disposition. The CTR Directorate initiated the
liquid propellant disposition project for Russia in FY 1995. The
CTR Directorate planned to provide equipment and services to assist Russia in
disposing of liquid fuel from SS-18 and SS-19 ballistic missiles and SLBMs in
an economical, safe, and environmentally sound manner. The project provides
125 flatbed rail cars, 670 intermodal tank containers, and 7 cranes to transport
and store the propellant; equipment and services to dispose of 30,000 metric
tons1 of propellant; and 123,000 metric tons of propellant oxidizer and
inhibitors. The CTR Directorate expects the cost of building the liquid
propellant disposition facility will be $73.8 million. In addition, the
CTR Directorate will fund operations at the facility but had not estimated
operating costs.

       SLBM Launcher and SSBN Destruction. The CTR Directorate began
destroying SLBM launchers and SSBNs for Russia in 1998. Before 1998, the
CTR Program provided equipment to Russia and renovated the infrastructure of
Russian ship repair yards. As of 2000, the CTR Directorate was destroying
SLBM launchers and SSBNs at four Russian ship repair yards. The SLBM
launcher and SSBN destruction project includes upgrading infrastructure at the
ship repair yards, repairing vessels that remove nuclear fuel from submarines,
defueling the SSBNs, cutting out the reactor core and launch tubes from the
SSBNs, processing low-level radioactive waste, and dismantling and cutting
SSBN hulls into transportable and salvageable sizes. DoD expects the cost of
1
    A metric ton equals 2204.6 pounds.


                                         2
     equipment, infrastructure, and destruction to total $339.6 million from inception
     through FY 2005, when the CTR Directorate plans to complete the project. By
     then, DoD expects to have destroyed 472 SLBM launchers2 from 31 SSBNs:
     11 Delta I, 4 Delta II, 10 Delta III, 5 Typhoon, and 1 Yankee-class SSBNs.
     Through May 2000, DoD contracted with Russian ship repair yards to destroy
     17 of the 31 SSBNs.

              SS-24 Missile System Destruction. The CTR Directorate began
     destroying SS-24 missiles3 and their silos for Ukraine in September 1997. DoD
     expects to destroy 46 operational silos and 5 launch control centers, restore
     those sites, and disassemble and de-fuel 54.54 missiles by FY 2005 at a total cost
     of $222.8 million. The CTR Directorate divided the undertaking into three
     separate projects. The first project prepares silos for destruction, repairs
     railroads, transports missiles to temporary storage or to the dismantlement
     facility, destroys silos, and restores silo sites. The second project disassembles
     the missiles and stores them until the propellant can be removed. The third
     project involves building and operating a propellant disposition facility. At the
     disposition facility, propellant will be removed from the missiles using a high-
     pressure water washout system and mixed with other materials to convert it into
     a commercial mining explosive. The Ukrainian government intends to provide
     the commercial mining explosive to mine operators within Ukraine.


Objectives
     The overall objective of this audit was to review the policies and procedures
     related to executing the CTR Program. Specific objectives were to determine
     whether the CTR Program was executed according to agreements made between
     the United States and the governments of FSU countries. We also reviewed the
     management control program as it related to the overall objective. See
     Appendix A for a discussion of the audit scope and methodology and our review
     of the management control program. See Appendix B for prior coverage related
     to the audit objectives.




     2
         Although SLBM launchers are part of the SSBNs, SLBM launchers are accounted for separately
         because they are countable items under START I.
     3
         The SS-24 missile warheads were deactivated and transferred to Russia between 1994 and 1996
         under a separate project.
     4
         The 54.5 missile count included the first stage of one SS-24 missile that was in the factory at
         the time it was identified for destruction.


                                                    3
           A. Use of Program Funds and Revenue
           The CTR Program used more than $64.5 million in program funds to
           facilitate the removal of dismantled systems by enhancing the value of
           salvageable materials and developing commercial by-products for Russia
           and Ukraine. While the removal and enhancement decisions were
           approved at high levels, DoD did not adequately address the use of
           revenue generated from U.S.-funded activities with Russia and Ukraine
           or perform adequate cost analyses. As a result of U.S. efforts in the
           destruction of WMD, Russia and Ukraine could generate revenue of
           about $72.8 million without specific agreements on how the revenue
           should be used.


Congressional Concerns
    Public Law 106-65, National Defense Authorization Act for Fiscal Year 2000,
    requires that the Secretary of Defense submit a report to Congress explaining
    the DoD strategy for encouraging FSU countries to contribute to the threat
    reduction effort. That provision arose from concerns expressed by the House
    Committee on Armed Services in House Report 106-162, May 24, 1999, which
    accompanied House Report 1401, the National Defense Authorization Act for
    FY 2000. House Report 106-162 states that Congress has consistently
    supported the CTR Program since its inception. However, the report indicates
    that support has always been predicated on DoD assurances that destroying
    FSU weapons would be “cooperative in a fiscal as well as a practical sense—
    with costs being shared by the parties concerned and not borne exclusively by
    the United States.” The committee acknowledged the economic decline in
    FSU countries, but was concerned that the willingness of the United States to
    absorb additional costs might further reduce incentives for recipient countries to
    invest their own resources. Also, the committee was concerned that relieving
    Russia of its financial burden might allow Russia to devote its scarce resources
    to developing newer and more sophisticated strategic nuclear arms.

    In a letter dated January 10, 2000, the Assistant Secretary of Defense (Strategy
    and Threat Reduction) responded that DoD continuously urges FSU countries to
    contribute their own funds and that DoD explores receipt of non-monetary
    contributions by recipient countries because of the extreme financial hardships
    experienced by those countries. Also, the Assistant Secretary of Defense stated
    that DoD had successfully obtained contributions of facilities, labor, materials,
    services, and supplies. However, he did not indicate whether DoD required or
    encouraged FSU countries to use revenue generated by U.S.-funded activities to
    destroy their own WMD.




                                         4
CTR Program Services
    The CTR Directorate used more than $64.5 million in program funds to
    facilitate removal of dismantled systems by enhancing the value of salvageable
    materials and developing commercial by-products for Russia and Ukraine. The
    additional services included converting liquid and solid propellant into
    commercial by-products, cutting weapons into small pieces of scrap, and
    digging up underground cable. We were unable to quantify the costs for all of
    the additional services provided, but did quantify $59.7 million for the liquid
    propellant disposition facility in Russia and $4.8 million for solid propellant
    disposition in Ukraine.

    Liquid Propellant Disposition. The CTR Directorate spent $73.8 million to
    build a facility to convert 30,000 metric tons of liquid propellant from SS-18
    and SS-19 missiles and SLBMs into two commercial by-products: fertilizer and
    industrial solvent. Although DoD considers the disposal of the liquid propellant
    as critical for Russia to meet its START requirements,5 the CTR Program could
    have incinerated the liquid propellant for $14.1 million, $59.7 million less than
    the cost just to build the facility, which does not include operating costs.

    In addition to the increased costs, converting the liquid propellant into
    commercial by-products is estimated to take 6 years longer than if the
    CTR Directorate had incinerated the propellant. In April 1995, when the
    Defense Nuclear Agency6 awarded the liquid propellant disposition contract, the
    estimated completion date for the project was October 1999. However, 5 years
    after contract award, the CTR Directorate had not started to convert the liquid
    propellant into commercial by-products. The delay was partially caused by the
    inability of Russia to provide infrastructure to support the project. As of
    August 2000, the estimated project completion date was scheduled for the fourth
    quarter of FY 2006, about 7 years after the originally estimated completion
    date. In comparison, the fixed-price proposal to incinerate the liquid propellant
    had a schedule to dispose of that propellant by May 2000. Because the
    incineration proposal did not depend on support from Russia to improve
    infrastructure, we believe it may have been completed on time.

    The decision to convert the liquid propellant into commercial by-products was
    based, in part, on an incomplete cost analysis. There were also political and
    environmental considerations.

    SLBM Launcher and SSBN Destruction. The CTR Directorate estimated that
    it would spend about $339.6 million to destroy 472 SLBM launchers and
    31 SSBNs for Russia.



    5
        Although disposing of liquid propellant is not a START requirement, it must be removed from
        missiles before removing the missiles from their silos or launch tubes. Also, because the liquid
        propellant is hazardous and highly volatile, it must be safely stored until rendered harmless.
    6
        At that time, the Defense Nuclear Agency provided contracting support for the CTR project
        office.


                                                  5
The CTR Directorate might have performed additional effort beyond what was
needed to economically destroy Russian SSBNs. A comparison between the size
of salvageable materials produced by the CTR Program for Russia and that
produced by the U.S. Navy when it destroys U.S. SSBNs showed that the
CTR Program might have cut Russian submarines into smaller pieces than
required. Contracts with ship repair yards in Russia specify that the ferrous
metal and titanium from the SSBNs were to be cut into pieces ranging from
4.3 square feet to 8.1 square feet. Other metals, such as aluminum, copper, and
nickel, were to be cut into 1.7-square-foot pieces, and copper cable was to be
shredded. In comparison, an official from the Naval Sea Systems Command 7
stated that the U.S. Navy cuts submarines into 120-square-foot pieces, at least
14.8 times larger than the metal salvaged by the CTR Program. Also, the
U.S. Navy does not shred the copper cable salvaged from U.S. SSBNs. The
Naval Sea Systems Command official stated that the U.S. Navy established
salvage sizes for the U.S. SSBNs to avoid unnecessary cuts while maximizing
the salvaged material that can be loaded onto barges. If sizes are too large,
transportation costs increase because fewer pieces fit on each barge. Although
cutting submarines into smaller pieces increases the value of the scrap, it also
increases the destruction costs.

SS-24 Missile System Destruction. The CTR Directorate estimated that it
would spend about $222.8 million to destroy the SS-24 missile system in
Ukraine, including $4.8 million of ingredients that convert stabilized solid
rocket propellant into mining explosives. The project includes the destruction of
46 silos, 5 launch control centers, and 54.5 SS-24 missiles containing
5.5 million kilograms of solid rocket propellant. Ukraine was receiving revenue
from the sale of salvaged materials as the CTR Directorate destroyed the
SS-24 infrastructure, missiles, and silos. Also, after the CTR Program starts to
assist Ukraine in converting the SS-24 rocket propellant into mining explosives,
Ukraine will receive the mining explosives.

The CTR Directorate performed work beyond what was required to
economically destroy the SS-24 missile system. The CTR Directorate designed
the project to salvage recoverable materials and prepare them for sale in order to
generate revenue for Ukraine.

        Silos. The contract for destroying the SS-24 missile system requires the
contractor to cut SS-24 silos into pieces no larger than 8.1 square feet, remove
and process 2,350 kilometers of underground cable, 8 and provide physical
security for the salvaged materials. In comparison, an official from the
U.S. Army Corps of Engineers, which is destroying silos for the U.S. Air
Force, stated that cable at U.S. silo sites is not removed because the removal
costs would greatly exceed any potential revenues gained from the sale of
salvaged cable. Furthermore, the U.S. Air Force has found that leaving the
cable in the ground does not cause environmental hazards.


7
    The Naval Sea Systems Command manages destruction of U.S. SSBNs.
8
    According to the Director, CTR Directorate, the CTR Program was only removing cable that
    was readily accessible.


                                            6
    The contract for destroying the SS-24 missile system also requires the contractor
    to prepare shipments of salvaged materials for sale by providing binding,
    marketing, and pricing assistance, if needed.

            Missiles. The contract for dismantling the SS-24 missile system requires
    the contractor to cut SS-24 missiles into pieces no larger than 5.2 square feet.
    In addition, the contract requires the contractor to extract precious metals from
    instruments and to sort the bolts, nuts, and other fasteners.

            Propellant. As of September 2000, the CTR Directorate planned to
    start converting the solid propellant in SS-24 missiles into mining explosives in
    June 2003. Prior to conversion, the CTR Program will build and renovate the
    infrastructure, and test the process to ensure that the removal and conversion
    process is feasible and safe. The planned conversion process includes removing
    the solid propellant from the missiles, adding stabilizers to prevent combustion,
    and then adding ammonia nitrate and other ingredients to create mining
    explosives. Although the CTR Directorate estimated that the ammonia nitrate
    and other ingredients will cost the United States about $4.8 million, Ukraine
    was not required to reimburse the United States for those value-added costs.


Addressing the Use of Revenue and Cost Analysis
    While the removal and enhancement decisions were approved at high levels in
    DoD,9 DoD did not adequately address the use of revenue generated from
    U.S.-funded activities with Russia and Ukraine. Also, the cost analysis for
    destroying the liquid propellant in Russia was not complete and the
    CTR Directorate did not perform a cost analysis for destroying SSBNs in
    Russia. In addition, the CTR Directorate could not locate a cost analysis for
    destroying the SS-24 missile system in Ukraine.

    Addressing Revenue With Russia. DoD had an opportunity to address the use
    of revenue in the initial implementing agreement with Russia, which was signed
    in August 1993, on eliminating Russian strategic offensive arms. The
    implementing agreement does not address the monitoring and use of revenue
    generated by Russia through assistance provided by the CTR Program.

    The removal and enhancement decisions on WMD involved high level approval
    within DoD and Russia.10 Instead of modifying the implementing agreement to
    address specific services and use of funds generated, DoD and Russia used

    9
        Approving officials included the Deputy Assistant Secretary of Defense (International Security
        Policy); the Deputy Assistant to the Secretary of Defense (Atomic Energy) for Defense
        Conversion; and the Deputy Assistant to the Secretary of Defense (Nuclear and Chemical and
        Biological Defense Programs) for Cooperative Threat Reduction.
    10
        Russian officials included the First Deputy Minister of Defense, the Deputy Minister of
        Economics, and the Chief of the Main Directorate of Monitoring and Utilization of Weapons
        and Military Technology.


                                                  7
informal arrangements. For example, correspondence from the State Committee
of the Russian Federation on the Military Industrial Complex to the Deputy
Assistant Secretary of Defense (International Security Policy), DoD, dated
April 11, 1995, states that Russia would use profit from liquid propellant
conversion to destroy additional strategic offensive arms and resolve
environmental problems connected with the destruction process. However, that
correspondence does not address monitoring of revenue generated from
U.S.-financed activities.

Addressing Revenue With Ukraine. DoD also had an opportunity to address
the use of revenue in the initial implementing agreement with Ukraine, which
was signed on December 5, 1993, on eliminating Ukrainian strategic nuclear
arms. However, the implementing agreement did not address the use of revenue
generated by Ukraine through assistance provided by the CTR Program. In
addition, although DoD and Ukraine have amended the implementing agreement
each year since 1993 to add funds, those amendments do not address the use of
or monitoring of revenue generated from U.S.-financed activities.

In June 1995, DoD entered into an implementing arrangement with the Ministry
of Defense of Ukraine. That arrangement required the Defense Nuclear Agency
to select an integrating contractor to assist with eliminating WMD in Ukraine.
The implementing arrangement included a provision that the Ministry of
Defense of Ukraine would use its own resources and funds made available by
weapons destruction assistance programs to resolve social security problems for
members of its armed services who were released from duty because nuclear
missiles were destroyed. The implementing arrangement, however, did not
address the monitoring of revenue generated by Ukraine through assistance
provided by the CTR Program.

Cost Analysis. The CTR Directorate did not prepare a complete cost analysis
on the liquid propellant disposition project, did not perform a cost analysis to
determine the most efficient way to destroy SLBM launchers and SSBNs in
Russia, and could not locate a cost analysis supporting the SS-24 missile system
destruction in Ukraine.
        Liquid Propellant Disposition Project. DoD decided to convert the
liquid propellant from SS-18 and SS-19 missiles and SLBMs into commercial
by-products because, in part, Russia requested that DoD destroy the propellant
through conversion and the CTR project office performed an incomplete
analysis of competing contract proposals. The analysis performed by the CTR
project office indicated that converting the liquid propellant was the most cost-
effective way to destroy that propellant. For each contract proposal, the CTR
project office totaled the expected cost to the United States and offset that cost
against revenue that would be generated for Russia. However, the analysis was
incomplete because it excluded costs that Russia was expected to incur. The
cost analysis did not include Russian costs for equipment and infrastructure that
Russia had initially agreed to pay as well as the cost of operating the liquid
propellant disposition facility. Those costs should have been included in the
analysis for the CTR project office to evaluate which disposition method was the
most economical to the United States and Russia. In December 1995, Russia
requested that DoD provide hydrogen and steam generators and concrete pads


                                    8
    for the disposition systems. In March 1997, Russia requested that DoD assist
    with installation of additional infrastructure at the disposition facility. DoD
    agreed to pay those costs, increasing the estimated cost to the United States by
    $40.1 million, from $26.1 million to $66.2 million. The increase included
    $29.8 million to acquire hydrogen and steam generators and concrete pads and
    $10.3 million to improve the infrastructure. Other adjustments increased the
    cost of the disposition facility by $7.6 million, from $66.2 million to a cost of
    $73.8 million. In addition, the CTR Directorate will spend additional funds to
    operate the facility but had not estimated the operating costs.

           SLBM Launcher and SSBN Destruction Project. The
    CTR Directorate did not perform an analysis to determine the most economical
    method of destroying Russian SLBM launchers and SSBNs. That study would
    have determined the most economical size into which launch tubes and SSBNs
    should be cut. Although the Naval Sea Systems Command assisted the
    CTR Directorate in evaluating the reasonableness of the destruction approach
    proposed by the ship repair yards, officials from the Naval Sea Systems
    Command stated that they did not agree to the size into which the Russian
    SSBNs should be cut. Instead, the negotiated prices were based on destruction
    processes agreed upon by the CTR Directorate and Russian ship repair yards.

            SS-24 Missile System Destruction. The CTR Directorate could not
    locate a cost analysis supporting the SS-24 missile system destruction in
    Ukraine. The CTR Directorate referred us to the DTRA Acquisition
    Management Directorate for the complete record of the project. The
    Acquisition Management Directorate provided contractor cost proposals for and
    selected independent reviews or audits of those proposals. However, the
    Acquisition Management Directorate could not locate a cost analysis to show
    that the scrap sizes, removal and processing of underground cable, and
    provision of physical security for salvaged materials were economical. The
    CTR Directorate suggested that it provided additional services to Ukraine as an
    appropriate reward for Ukraine “getting out of the nuclear business.”


Political, Economic, and Environmental Considerations
    The CTR Directorate did not always base decisions on cost analyses. Instead,
    DTRA officials explained that the overarching U.S. objective in negotiating with
    FSU countries was to eliminate the threat from WMD as quickly as possible.
    Therefore, CTR Program removal and enhancement decisions were based, in
    part, on political, economic, and environmental considerations. DTRA officials
    also explained that the FSU countries are interested in reducing their forces and
    meeting treaty obligations but take a more conservative approach to reducing
    their forces. FSU countries take that approach, according to DTRA officials,
    because WMD systems symbolize a major element of their claims to being
    significant players on the world political stage; were a major past investment;
    and provide large segments of their populations employment opportunities for
    which there are no readily apparent alternatives. CTR Program officials also
    stated that DoD tried to create employment and provide more revenue from the
    salvageable materials because of the weak economies in Russia and Ukraine.

                                         9
    Other decisions, such as the conversion of solid rocket fuel into mining
    explosives in Ukraine, were made for environmental reasons. Nevertheless,
    when there is a choice of options, a cost analysis should be performed and
    provided to decision-makers so that they can make an informed decision.


Revenue Generated From Salvaged Materials
    For the projects reviewed, Russia and Ukraine could generate about
    $72.8 million11 in revenue from CTR Program efforts without an agreement on
    how they would use that revenue.

    Liquid Propellant Disposition. Based on prices in the European chemical
    market in September 2000, Russia could generate revenue of about
    $14.1 million when it sells the commercial by-products produced by liquid
    propellant disposition. That includes $12.9 million from 22,500 metric tons of
    industrial solvent and $1.2 million from 8,490 metric tons of fertilizer.
    Although Russia had no commitments to DoD on how it would use the revenue,
    Russian officials told DoD officials in the April 11, 1995, correspondence that
    they would use any profit for “the further development of projects for
    destruction of strategic offensive arms and for the resolution of environmental
    problems connected to the destruction process.” However, no agreement was
    developed to solidify that statement and the CTR Directorate had not developed
    controls to monitor how Russia will use the revenue.

    SLBM Launcher and SSBN Destruction. Based on the price of clean scrap
    metal in Europe and the United States, Russia could generate revenue of about
    $41.7 million when it sells over 192,900 metric tons of salvaged metal from the
    31 SSBNs.12 That includes $23.2 million from 17 SSBNs that the
    CTR Directorate has already contracted to destroy and $18.5 million from
    14 SSBNs that the CTR Directorate plans to contract to destroy. Officials from
    the Naval Sea Systems Command stated that the U.S. Government sells the
    salvaged metal from each U.S. SSBN that it destroys for about $600,000. Each
    U.S. SSBN yields between 3,000 tons and 3,500 tons of salvaged metal.
    However, Russian SSBNs yield more salvaged metal and are cut into smaller
    pieces. Specifically, a Delta I-class SSBN yields 4,251 metric tons, Delta II-
    class and Delta III-class SSBNs each yield 5,205 metric tons, a Typhoon-class
    SSBN yields 13,838.5 metric tons, and a Yankee-class SSBN yields
    4,114 metric tons of salvageable metal. In addition to ferrous metals, the




    11
     Possible shipping costs and fluctuating prices could affect the net revenue that Russia and
     Ukraine receive from the sale of commercial by-products and scrap metal.
    12
      The estimated revenue does not include 21,245 metric tons of metal that would be salvaged
     from the five Typhoon-class submarines that DTRA plans to destroy because DTRA could not
     identify the types of metals on those SSBNs.


                                               10
    CTR Program salvages tons of aluminum, copper, nickel, and titanium from
    each Russian submarine. Appendix C provides details on the amount and value
    of the metals for each class of Russian SSBN.

    In addition, DoD and the Department of Energy are looking at the possibility of
    destroying general-purpose submarines. According to the program manager in
    the CTR Directorate for Strategic Offensive Arms Elimination-Russia, the
    United States would assist Russia in destroying between 100 and 200
    general-purpose submarines at an estimated cost of $1 billion to $2 billion. The
    metals salvaged from those submarines could also provide revenue to Russia that
    DoD would need to address in an agreement.

    SS-24 Missile System Destruction. Ukraine will generate revenue of about
    $17 million from the dismantlement of the SS-24 missile system. That includes
    $4.6 million from selling scrap metal and $12.4 million worth of mining
    explosives. The program manager in the CTR Directorate for Strategic Nuclear
    Arms Elimination-Ukraine stated that Ukraine will use a portion of the revenue
    from salvaged material to finance housing for those members of its armed forces
    released from active duty because nuclear missiles were destroyed.13 However,
    he had no visibility over how much revenue Ukraine will allocate to housing or
    other purposes.

           Silos and Missiles. Ukraine was generating revenue from the sale of
    salvaged metals in SS-24 silos and could generate revenue from salvaged
    materials in the SS-24 missiles. The silos contained 22,603 metric tons of
    salvageable metal, including aluminum, copper, lead, and steel from the silos
    and their associated launch control centers, valued at $4.6 million. In addition,
    when Ukraine starts to destroy the SS-24 missiles, it could generate revenue
    from 352 metric tons of metal and other materials salvaged from the missiles.

            Propellant. The program manager for Ukraine stated that after SS-24
    propellant is converted into mining explosives, Ukraine intends to give all
    $12.4 million worth of the mining explosives to a Ukrainian mine. The
    CTR Directorate did not request that Ukraine use the $12.4 million market
    value of the explosives to destroy its own WMD or to compensate DoD for the
    value added to convert the propellant to mining explosives. Furthermore,
    officials in the CTR Directorate did not know who owns the mine, what the
    mine produces, or the amount of profit the mine would make from the donated
    explosives.


Conclusion
    Russia and Ukraine could generate about $72.8 million of revenue from the
    by-products and salvageable materials produced by U.S.-funded activities
    related to the three CTR projects discussed in this report. Revenue generating
    13
     Public Law 104-201, National Defense Authorization Act for Fiscal Year 1997, states that
     DoD cannot use CTR funds to provide housing to FSU countries. Before FY 1997, CTR funds
     were used to provide housing.


                                           11
    activities from other CTR projects could also increase the amount of revenue
    available for CTR Program goals. However, the CTR Program did not
    adequately address the use of revenue generated by Russia and Ukraine through
    CTR Program efforts. An agreement with safeguards to require the use of
    revenue generated through U.S.-funded activities to further destroy WMD could
    improve the cooperative nature of the CTR Program and ensure the costs are not
    exclusively borne by the United States. Further, before the CTR Program
    enhances the value of salvageable materials or develops commercial
    by-products, the CTR Directorate should perform a complete cost analysis to
    provide decision-makers with better information for making decisions, even
    when there are political and environmental considerations.


Management Comments on the Finding and Audit Response
    Assistant Secretary of Defense (Strategy and Threat Reduction). The Acting
    Principal Deputy Assistant Secretary of Defense (Strategy and Threat
    Reduction) (PDASD[STR]) stated that although WMD holdings in FSU
    countries are a threat to the United States, WMD is only an inconvenience to
    those countries. Further, the CTR Program uses the benefits that accrue to
    FSU countries from destroying WMD as leverage to reach agreements with
    FSU countries.

    The PDASD(STR) questioned amounts cited as additional costs to the United
    States and revenue generated for FSU countries. She questioned methods used
    to develop estimates that the CTR Program spent an additional $64.5 million
    over what was needed to destroy WMD and that FSU countries will receive
    $72.8 million in revenue from selling the scrap. The Acting PDASD(STR)
    stated that the estimates do not account for all relevant factors and require
    clarification.

    The PDASD(STR) stated that her office had extensive correspondence with
    executive agents of recipient countries pledging that revenues will be employed
    to further develop work to eliminate WMD and stated that DoD had the
    necessary authority within existing agreements to change monitoring and use of
    revenue procedures.

    The PDASD(STR) provided comments on each project reviewed. For the liquid
    propellant disposition project, she stated that the contract was awarded to the
    lowest bidder and Russia was initially responsible for operating the liquid
    propellant conversion system. Also, Russian officials assured DoD that any
    profits would be used to eliminate WMD. For the SLBM and SSBN destruction
    project, the PDASD(STR) stated that DoD determined that disposing of metal
    scrap would ensure that scrap did not accumulate in the shipyards and delay the
    destruction of SSBNs. Also, Russia agreed that revenues from sale of the scrap
    would be used to purchase fuel, electricity, oxygen, and cutting gases to destroy
    SLBMs and SSBNs. However, the PDASD(STR) stated that the scrap revenue
    was insignificant compared with the cost of destroying the SLBMs and SSBNs.
    For the SS-24 missile system destruction project, the PDASD(STR) stated that
    the main reason for assistance with scrap sizing was to reduce scrap

                                       12
accumulation that could delay destruction of SS-24 systems and that she was
satisfied with the arrangement with Ukraine. The PDASD(STR) also stated that
converting solid fuel to mining explosives is a pilot program and if successful
CTR officials will address the use of revenue from the sale of explosives and
other by-products.

Audit Response. Based on PDASD(STR) comments, we clarified the report to
show where the CTR Directorate spent the additional $64.5 million, to show
that revenue from commercial by-products and scrap metal is subject to price
fluctuations, and that factors such as shipping costs could affect the actual
revenue that Russia and Ukraine may generate. After analysis of management
comments, we deleted draft recommendations to amend the implementing
agreements and modified the report accordingly.

Regarding the liquid propellant disposition project, although DoD determined
that the contractor offering to convert liquid propellant was the lowest bidder,
that was only because DoD reduced bid costs by the estimated revenue that
Russia was to receive when it sold the converted product, and excluded
infrastructure and operating costs. Also, although Russian officials assured
DoD officials that profits would be used to destroy WMD, there is no
mechanism to ensure revenues are used to destroy WMD.

Regarding the SLBM and SSBN destruction project, because proposals from
Russian shipyards included the cost of fuel, electricity, oxygen, and cutting
gases, revenue from the sale of scrap metal is no longer needed to pay those
costs.

Regarding the SS-24 missile system destruction project, the PDASD(STR) did
not provide evidence showing that cutting scrap into smaller pieces prevented
delays in destroying the SS-24 missile systems. Performing a cost analysis
should assist DoD in determining the best method of destroying WMD.

Defense Threat Reduction Agency Comments on Eliminating WMD. DTRA
stated that insistence on using economical methods to destroy WMD would
constrain contract negotiations with FSU countries and prevent or delay mission
accomplishment. DTRA referred to insistence on the use of economical
methods as a “minimalist approach” and stated that the overarching
U.S. objective in negotiating with FSU countries was to eliminate the threat
from WMD as quickly as possible. DTRA explained that FSU countries are
interested in reducing their forces and meeting their treaty obligations, but they
have their own negotiation constraints and take a more conservative approach to
reducing their forces. DTRA also explained that WMD systems symbolize a
major element of their claims to being significant players on the world political
stage; were a major past investment; and employ large parts of their
populations, which do not have readily apparent alternatives for making a
minimal living.

Audit Response. To the extent possible, the CTR Program should be
cooperative in both an economical and a practical sense. Congress has
supported the CTR Program because of DoD assurances to Congress and the
U.S. taxpayers that assistance would be cooperative, with costs shared by the


                                    13
    parties concerned and not borne entirely by the United States. Although DTRA
    stated that using economical methods to destroy WMD would constrain contract
    negotiations and delay mission accomplishment, previous contract negotiations
    have not always led to the most timely destruction of WMD. For example,
    DoD negotiated with Russia to destroy liquid propellant by converting it into
    commercial by-products; however, we believe that decision may have increased
    the estimated destruction time by 6 years. The CTR Directorate should use
    more complete cost analyses in determining the most economical and effective
    methods of destroying WMD, in addition to considering political objectives.


Recommendations, Management Comments, and Audit
 Response
    Deleted, Renumbered, and Revised Recommendations. As a result of
    comments from the Acting PDASD(STR), we deleted Recommendations A.1.a.,
    A.1.b., and A.1.c. and renumbered and revised Recommendation A.1.d. as
    Recommendation A.1.

    A.1. We recommend that the Assistant Secretary of Defense (Strategy and
    Threat Reduction) initiate action to address in agreements with Russia and
    Ukraine the monitoring and use of revenue generated from U.S.-funded
    activities.

    Management Comments. The Acting Principal Deputy Assistant Secretary of
    Defense (Strategy and Threat Reduction) stated that DoD will address or
    readdress with executive agents from recipient countries the use of current or
    possible future revenues generated from U.S.-funded activities. The
    PDASD(STR) also stated that, for individual projects, DoD will assess the
    economies of monitoring the use of revenue received by FSU countries.

    Audit Response. PDASD(STR) comments are responsive to the
    recommendation on addressing the use of revenue. However, the comments on
    monitoring revenue need clarification. In response to the final report, we
    request that the PDASD(STR) clarify the guidelines for determining when it is
    economical to monitor the use of revenue received by FSU countries.

    A.2. We recommend that the Director, Cooperative Threat Reduction
    Directorate:

          a. Prepare cost analyses of methods available to destroy weapons of
    mass destruction to provide decision-makers with information needed for an
    informed decision.

    Management Comments. DTRA concurred and stated that it would expand its
    cost analysis efforts to provide decision-makers with information needed to
    make informed decisions.



                                      14
b. Monitor the use of revenue generated from activities funded by the
United States.

Management Comments. DTRA deferred concurrence until the Under
Secretary of Defense for Policy establishes a requirement that the revenues be
monitored.

Audit Response. After the PDASD(STR) clarifies DoD policy on monitoring
revenue, we request that DTRA provide additional comments on
Recommendation A.2.b.




                                   15
           B. Evaluating Program Performance
           The CTR Directorate did not establish adequate performance goals for
           the CTR Program. That occurred because DTRA did not fully
           implement requirements of the Government Performance and Results Act
           (GPRA) for the CTR Program. As a result, DoD and DTRA managers
           could not successfully demonstrate that the CTR Directorate was
           executing the CTR Program efficiently and effectively or identifying
           opportunities to improve program effectiveness.


Requirements for Evaluating Program Performance
    Public Law 101-576, “Chief Financial Officers Act of 1990.” Public
    Law 101-576, “Chief Financial Officers Act of 1990,” as amended, requires
    Federal organizations to develop and report cost information and to
    systematically measure performance. As a result of those requirements, the
    Federal Accounting Standards Advisory Board issued Statement of Federal
    Financial Accounting Standards No. 4, “Managerial Cost Accounting
    Standards,” (the Accounting Standard) July 31, 1995. The Accounting
    Standard, which became effective for fiscal periods beginning after
    September 30, 1996, requires that Federal agencies develop performance
    measures to report on the efficiency, effectiveness, and results of their
    programs.

    Public Law 103-62, “Government Performance and Results Act of 1993.”
    GPRA was enacted to hold Federal agencies accountable for achieving program
    results and to improve program effectiveness. Specifically, starting in
    September 1997, GPRA required agencies to submit to the director of the Office
    of Management and Budget and to Congress a strategic plan for program
    activities. Among other requirements, the strategic plan should contain general
    program goals and objectives, describe how the agency will achieve the goals
    and objectives, and identify external factors that could affect achieving the goals
    and objectives. The strategic plan should cover a 5-year period.

    Starting with the FY 1999 budget, GPRA requires agencies to prepare and
    submit performance plans each year to the director of the Office of Management
    and Budget and to Congress. The performance plan should contain quantifiable




                                        16
    performance goals and performance indicators and a basis for comparing results
    against the performance goals. Section 4 of GPRA defines a performance goal
    as a:
              . . . target level of performance expressed as a tangible, measurable
              objective, against which actual achievement can be compared,
              including a goal expressed as a quantitative standard, value, or rate.

    Also, Section 4 of GPRA defines a performance indicator as:
              . . . a particular value or characteristic used to measure output or
              outcome.

    No later than March 31, 2000, Federal agencies were to submit a performance
    report to the President and Congress that compared program performance for
    the previous fiscal year against goals. For performance goals not met, agencies
    were to provide an explanation.

    DoD Plan for Implementing GPRA. The Acting Under Secretary of Defense
    (Comptroller) issued “Government Performance and Results Act
    Implementation,” October 16, 1997, outlining the DoD plan for implementing
    GPRA. That memorandum states that DoD will implement GPRA at multiple
    levels through the Planning, Programming, and Budgeting System. The
    memorandum states that all DoD officials should develop performance goals and
    quantifiable measures of performance and success, and perform program
    outcome evaluations.


Establishing Performance Goals
    The CTR Directorate did not establish adequate performance goals and
    performance indicators. The CTR Directorate documented its performance
    goals through the Planning, Programming, and Budgeting System by including
    those performance goals in its budget submissions. However, the performance
    goals were inadequately defined and were inconsistent among budget
    submissions. Often, budget submissions merely stated that the CTR Directorate
    would “continue work” on a project. Also, the budget submissions did not
    define other performance goals, such as time frames for completing projects,
    unit prices for destroying WMD, or efforts to improve performance. For
    projects under the Strategic Offensive Arms Elimination-Russia program,
    Table 1 illustrates how the CTR Directorate defined and changed performance
    goals for FY 1999 funds. For projects under the Strategic Nuclear Arms
    Elimination-Ukraine program, Table 2 illustrates how the CTR Directorate
    defined and changed performance goals for FY 1999 funds. Because
    CTR Program funds can be obligated over a 3-year period, the tables identify
    performance goals for FY 1999 funds included in FY 1999, FY 2000, and
    FY 2001 budget submissions.




                                           17
   Table 1. Proposed Use of FY 1999 CTR Funds as Presented in
              Budget Submissions for FYs 1999-2001

                        Strategic Offensive Arms Elimination-Russia

 Program Objective               FY 1999                   FY 2000                FY 2001

 SLBM launchers and                 108                       106                    144
 their SSBNs

 ICBMs* (liquid                     134                        39                Start to destroy
 fueled)                                                                      liquid-fueled ICBMs
                                                                                  and launchers

 Solid rocket motors                100                  Not addressed          Not addressed

 SS-18 silos                         10                  Not addressed                 6

           *Intercontinental ballistic missile.

Although the FY 1999 budget submission for Strategic Offensive Arms
Elimination-Russia stated that FY 1999 funds would destroy 10 SS-18 missile
silos, the FY 2000 budget submission did not address using FY 1999 funds to
destroy SS-18 missile silos, and the FY 2001 budget submission stated that
FY 1999 funds would destroy 6 SS-18 missile silos. Furthermore, the FY 2000
and FY 2001 budget submissions did not explain why those changes occurred.


   Table 2. Proposed Use of FY 1999 CTR Funds as Presented in
              Budget Submissions for FYs 1999-2001

                          Strategic Nuclear Arms Elimination-Ukraine

 Program Objective                FY 1999                   FY 2000                FY 2001
 SS-24 silos                         10                Continue destroying            111
                                                         46 SS-24 silos

 Strategic bombers            Begin destroying         Continue destroying            11
                              strategic bombers        44 strategic bombers
                                 and ALCMs2             and 1,068 ALCMs

 SS-24 storage                  Not addressed                  36                     26

 SS-24 disassembly          Begin disassembling             Continue                  20
                             SS-24 missiles at          disassembling 55
                                 Pavlograd               SS-24 missiles

 Solid propellant               Not addressed               Continue           Begin construction
 disposition facility                                      construction
           1
               Includes one launch control center.
           2
               Air-launched cruise missile.




                                                  18
    Likewise, the FY 1999 budget submission for Strategic Nuclear Arms
    Elimination-Ukraine did not state how many strategic bombers the
    CTR Directorate planned to destroy. Also, the FY 2001 budget submission did
    not explain why the CTR Directorate would start to construct a solid propellant
    disposition facility with FY 1999 funds although the FY 2000 budget submission
    indicates that FY 1999 funds would be used to continue construction of that
    facility.


Implementation of GPRA
    The CTR Directorate did not establish adequate performance goals because
    DTRA did not fully implement requirements of GPRA. Specifically, DTRA did
    not have a strategic plan establishing general goals for the CTR Directorate to
    use as a basis for establishing quantifiable performance goals and performance
    indicators. Although DTRA published an undated strategic plan during the
    audit, “Defense Threat Reduction Agency Strategic Plan 2000,” that plan did
    not provide a sufficient baseline to allow DTRA to measure performance of the
    CTR Program. According to CTR Directorate officials, DTRA was in the
    process of updating its strategic plan and continuing its efforts to fully
    implement GPRA.

    DTRA Strategic Plan. The DTRA strategic plan presents the vision, mission,
    objectives, and strategies to guide DTRA actions. However, the strategic plan
    only covers a 2-year period, instead of 5 years as required by GPRA. In the
    strategic plan, the mission of the CTR Program was covered under the
    DTRA objective of reducing the present threat. Although the strategic plan
    states how the CTR Program will help DTRA to achieve that objective, the
    strategic plan does not describe the effort that the CTR Directorate would
    provide over a specified period of time or identify external factors that could
    affect achievement of the objectives. For the CTR Program, the DTRA
    strategic plan identified the following goals:
               Continue elimination of former Soviet strategic nuclear systems
               consistent with Strategic Arms Reduction Treaty requirements.

               Assist former Soviet countries to reduce WMD proliferation threats.

    The strategic plan should have identified overall performance goals for the
    CTR Program, such as completing the destruction of WMD in Ukraine by the
    end of FY 2005. A performance indicator for that goal would be the percentage
    of WMD destroyed.




                                           19
Evaluating the CTR Program
    Because the CTR Directorate did not establish adequate performance goals and
    indicators, managers in DoD and DTRA could not successfully evaluate whether
    the CTR Directorate was executing the CTR Program efficiently and effectively
    or identifying opportunities to improve program effectiveness. The
    CTR Directorate continually changed performance goals for its projects in its
    budget submissions. As a result, there was no assurance that funding requests
    were only to finance new projects or destruction of additional WMD. For
    example, the CTR Directorate originally stated it would use FY 1999 funds in
    Russia to destroy 134 liquid-fueled missiles, but reduced the goal to 39 missiles
    in the FY 2000 budget. However, in the CTR Program FY 2000 budget
    submission, the CTR Directorate stated that it would use FY 2000 funds to
    eliminate 68 liquid-fueled missiles. It cannot be determined whether the
    68 missiles were included as part of the 134 missiles identified in the FY 1999
    budget submission.

    In addition, because the budget submissions did not provide unit costs or time
    frames for destroying WMD, DoD and DTRA managers did not know whether
    unit costs were increasing or whether weapons were being destroyed on time.
    That information would allow Congress and managers in DoD and DTRA to
    evaluate whether the CTR Directorate was destroying WMD efficiently and
    effectively. It would also allow managers to identify opportunities to improve
    program effectiveness and quantify how external factors and management
    decisions impact the program. Furthermore, results were not compared against
    the original performance goals; the goals were revised. Therefore, the
    CTR Directorate was not fully accountable for achieving results or improving its
    program effectiveness.


Management Actions
    As of February 2001, DTRA was continuing its effort to implement the Chief
    Financial Officers Act of 1990 and GPRA. That effort included conducting a
    strategic planning conference with the CTR Directorate in November 2000 to
    evaluate the strategy for executing the CTR Program. Also, the
    CTR Directorate was developing an annex to the DTRA strategic plan and
    designing a program to reach the general goals listed in the DTRA strategic
    plan. In developing that annex, the CTR Directorate was developing
    performance goals and indicators using worksheets that include performance
    goals, performance measures, priorities, time frames for satisfying customer
    requirements, and methods for improving processes and capacities. If properly
    implemented, the completed worksheets should allow the CTR Directorate to
    develop an annex that will allow managers in the CTR Directorate, DTRA, and
    DoD to evaluate management of the CTR Program.




                                       20
Conclusion
    Although Appendix D identifies many CTR Program accomplishments, there is
    no basis for determining whether those accomplishments met performance goals.
    Budget submissions for the CTR Program identified performance goals, but the
    goals were not adequately defined and were continually changed without
    explanation. Therefore, DTRA and DoD managers could not measure
    accomplishments against consistent performance goals. Without consistent
    performance goals, DoD management did not have information necessary to
    evaluate whether the CTR Program had been operated economically and
    efficiently. Without a method to measure success, managers in the
    CTR Directorate were not fully accountable for achieving results. Ongoing
    DTRA efforts to develop better metrics should enhance future program
    management and evaluation.


Recommendations, Management Comments, and Audit
 Response
    Revised Recommendation. As a result of comments from DTRA, we revised
    Recommendation B.2.

    B. We recommend that the Director, Defense Threat Reduction Agency:

          1. Continue efforts to improve the “Defense Threat Reduction
    Agency Strategic Plan 2000” by:

                   a. Increasing the period covered by the strategic plan from
    2 years to 5 years.

                 b. Including performance goals for the Cooperative Threat
    Reduction Directorate.

    Management Comments. DTRA concurred, stating that it was building a
    5-year strategic plan and that the CTR Directorate was taking steps to include
    performance goals in its annex to the DTRA strategic plan.

    Audit Response. DTRA comments were responsive; however, in responding to
    this report, we request that DTRA provide the estimated completion date of its
    actions.

           2. Develop and publish goals and quantifiable measures that:

                  a. Are consistent from year to year.

                  b. Include time frames and unit prices for destroying
    weapons of mass destruction and address efforts to improve performance
    through cost and time reductions.


                                       21
Management Comments. DTRA partially concurred with the draft
recommendation. DTRA agreed that the CTR Program needs goals that are
consistent from year to year, but stated that the goals should be in the new CTR
Annual Report to Congress instead of in the budget submission, as we originally
recommended, because of the amount of detail required. DTRA did not concur
with including time frames and unit prices and addressing efforts to improve
performance in budget submissions. DTRA stated that the CTR Annual Report
to Congress meets the intent of the recommendation. DTRA stated that CTR
budget submissions are a forecast of expenditures 2 to 3 years in the future that
involves external uncertainties that DTRA cannot control. Those uncertainties
include situations within FSU countries and time lags in processes related to the
budget, Secretary of State certification of FSU countries, DoD notification to
Congress, and signing of implementing agreements.

Audit Response. DTRA comments on Recommendation B.2.a. are responsive.
DTRA comments on B.2.b. are partially responsive. We revised the overall
recommendation to provide DTRA the flexibility to include performance goals
and performance indicators in the CTR Annual Report to Congress. However,
the response from DTRA did not clearly state whether the CTR Annual Report
to Congress will include time frames and unit prices for destroying WMD and
will address efforts to improve performance through cost and time reductions.

We recognize that there are several factors beyond the control of DTRA that
affect whether the CTR Directorate can meet its goals and that affect its
performance and success. DTRA should identify and discuss key external
factors in its strategic plan. Also, DTRA should monitor those external factors
and attempt to identify actions that could reduce the potential impact of external
factors.

In response to the final report, we request that DTRA provide additional
comments on Recommendation B.2.b., including whether or not it will include
time frames, unit prices, and efforts to improve performance in the CTR Annual
Report to Congress.




                                    22
Appendix A. Audit Process

Scope
    We reviewed DoD methods and policies used to administer the CTR Program,
    which included program, project, and financial management. The review
    included an evaluation of DTRA compliance with selected provisions of the
    Nunn-Lugar legislation, international agreements, and DoD directives and
    instructions. We also verified that accomplishments included in the June 15,
    2000, “CTR Scorecard”1 were accurate and supported. The documentation
    reviewed covered the period from December 1991 through October 2000.
    Contracts for the CTR Program that were included in the review are in the
    following table.


                               CTR Program Contracts Reviewed

            Contract Number               Date                         Subject
           DTRA01-00-C-0051        June 30, 2000          Propellant Disposition Facility
           DTRA01-99-C-0207        September 27, 1999     Missile Disassembly
           DTRA01-99-C-0092        September 10, 1999     SLBM/SSBN Dismantlement
           DTRA01-99-C-0093        September 8, 1999      SLBM/SSBN Dismantlement
           DTRA01-99-C-0091        September 3, 1999      SLBM/SSBN Dismantlement
           DTRA01-99-C-0094        September 2, 1999      SLBM/SSBN Dismantlement
           DSWA01-98-C-0123        June 12, 1998          SLBM/SSBN Dismantlement
           DSWA01-98-C-0112        June 12, 1998          Silo Launcher Dismantlement and
                                                           Site Technical Restoration
           DSWA01-98-C-0108        May 29, 1998           SLBM/SSBN Dismantlement
           DSWA01-98-C-0104        May 27, 1998           SLBM/SSBN Dismantlement
           DSWA01-98-C-0036        March 7, 1998          SLBM/SSBN Dismantlement
           DNA001-95-C-0066        April 17, 1995         Russian Ballistic Missile Liquid
                                                           Propellant Disposition



    We conducted interviews with officials from the Office of the Assistant
    Secretary of Defense (Strategy and Threat Reduction), DTRA, Naval Sea
    Systems Command, Air Staff, Air Force Space Command, Air Force Materiel
    Command, Air Combat Command, and Army Corps of Engineers. We also



    1
        The CTR Scorecard shows how many strategic weapons, by weapon type, the CTR Program
        helped to destroy. The CTR Scorecard is provided to Congress, when requested, to
        demonstrate accomplishments of the CTR Program, but does not demonstrate the efficiency or
        effectiveness of the CTR Program.


                                               23
    visited project sites in Russia and Ukraine to speak with government and
    contracting representatives. In addition, we observed CTR Directorate
    personnel reviewing their projects at sites within Russia and Ukraine.

    DoD-Wide Corporate Level GPRA Coverage. In response to GPRA, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal and subordinate performance goal.

            FY 2000 DoD Corporate Level Goal 1: Shape the international
            environment and respond to the full spectrum of crises by providing
            appropriately sized, positioned, and mobile forces. (00-DoD-1)

            FY 2000 Subordinate Performance Goal 1.1: Support U.S. regional
            security alliances through military-to-military contacts and the routine
            presence of ready forces overseas, maintained at force levels determined
            by the Quadrennial Defense Review. (00-DoD-1.1)


Methodology
    We evaluated the ability of DoD to efficiently and effectively manage the
    CTR Program. Specifically, we identified and analyzed requirements, policy,
    and guidance established and implemented by DoD and CTR Directorate
    officials to provide assistance to FSU countries.

        •   We evaluated processes used by the Office of the Assistant Secretary of
            Defense (Strategy and Threat Reduction) and DTRA for developing
            umbrella agreements, developing implementing agreements, defining
            project requirements, and contracting.

        •   We examined DTRA managerial oversight of the CTR Program.

        •   We researched the value of salvaged materials and commercial
            by-products produced by destroying WMD.

        •   We identified how the United States destroys its own WMD.

        •   We reviewed procedures for validating obligations.

    Use of Computer-Processed Data. We did not evaluate the general and
    application controls of the Centralized Accounting and Financial Resource
    Management System, which accounts for funds obligated by DTRA. We relied
    on data produced by that system to support the memorandum we submitted to
    the Director, DTRA, April 18, 2000, which stated that DTRA was not
    performing periodic reviews to validate obligations (Appendix E). We did not
    evaluate the controls because that was outside the scope of our review. Not
    evaluating the controls did not affect the results of the audit.



                                        24
Universe and Sample. We performed reviews using judgmental samples of
CTR Program projects and the CTR Scorecard. Also, to identify outstanding
obligations that had no financial activity, we obtained populations of outstanding
obligations from the Centralized Accounting and Financial Resource
Management System.

        CTR Programs and Projects Selected for Review. To select
CTR programs and projects for review, we first selected programs and then
chose individual projects. We selected Strategic Offensive Arms
Elimination-Russia and Strategic Nuclear Arms Elimination-Ukraine because
those programs assisted Russia and Ukraine in meeting their START
requirements and had high funding levels for FY 1999.2 Within the Strategic
Offensive Arms Elimination-Russia program, the SLBM launcher and SSBN
destruction project was selected based on the high dollar value of FY 1999
actual obligations and FY 2000 and FY 2001 budget estimates. Selection of the
liquid propellant disposition project in Russia was based on a suggestion made
by the program manager for the Strategic Offensive Arms Elimination-Russia.
Within the Strategic Nuclear Arms Elimination-Ukraine program, the SS-24 silo
destruction; SS-24 missile disassembly, storage and destruction; and SS-24
propellant disposition facility projects were selected based on the high dollar
value of FY 1999 actual obligations and FY 2000 and FY 2001 budget
estimates.

        CTR Outstanding Obligations Reviewed. To identify outstanding
obligations that had no recent disbursement activity, we obtained populations of
outstanding obligations for the CTR Program from the Centralized Accounting
and Financial Resource Management System at DTRA. The population of
contract obligations consisted of obligations in the accounting system as of
February 7, 2000. Each contract obligation initially exceeded $500,000 and had
no disbursements since June 30, 1999. The population of outstanding
obligations for interagency agreements and military interdepartmental purchase
requests consisted of obligations in the accounting system as of February 15,
2000. Those obligations had no disbursements since June 30, 1999. The
population of outstanding travel obligations consisted of obligations in the
accounting system as of February 28, 2000. Those obligations had no
disbursements in at least 500 days.

        Accuracy of the CTR Scorecard. To test the accuracy of
accomplishments listed in the CTR Scorecard, we judgmentally selected 9 of the
36 strategic weapon categories listed on the CTR Scorecard Breakdown. Those
categories included 120 SS-18 missiles, 22 SS-24 missiles, 144 SLBM launchers
on Delta-I SSBNs, 64 SLBM launchers on Delta II-class SSBNs, 2 Yankee-class
SSBNs, 9 Delta I-class SSBNs, 6 Blackjack bombers, 1 Bear H-6 bomber, and
6 Bear H-16 bombers. We traced those accomplishments to DD Form 250s,
“Material Inspection and Receiving Reports,” status reports from
U.S. contractors, and Department of State records.

2
    Although the Chemical Weapons Destruction-Russia and Fissile Material Storage
    Facility-Russia had higher funding levels than the Ukrainian program, we did not review those
    programs because the General Accounting Office issued a report on those programs during
    FY 1999 (GAO Report No. NSIAD-99-76).


                                             25
    Audit Type, Dates, and Standards. We performed this program audit from
    January through October 2000 in accordance with auditing standards issued by
    the Comptroller General of the United States, as implemented by the Inspector
    General, DoD. Accordingly, we included tests of management controls
    considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD; Russia and Ukrainian government officials; and
    contractors from Russia, Ukraine, and the United States. Further details are
    available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls within the CTR Program. Specifically, we
    reviewed management controls over the use of CTR Program funds. We also
    reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses within the CTR Program as defined by DoD
    Instruction 5010.40. Although the CTR Directorate had many
    accomplishments, DTRA did not have a basis for determining how well the
    CTR Directorate achieved those accomplishments and whether those
    accomplishments met performance goals. Recommendations B.1. and B.2., if
    implemented, will allow DTRA to evaluate the performance of the
    CTR Program. A copy of the report will be provided to the senior official
    responsible for management controls in DTRA.

    Adequacy of Management’s Self-Evaluation. DTRA officials did not identify
    all significant operations and mission responsibilities. DTRA had established
    management controls for travel funds, export controls, and International
    Merchant Authorization Cards. DTRA did not include management of the
    CTR Program as an assessable unit and, therefore, did not identify or report the
    material management control weaknesses identified by the audit.




                                       26
Appendix B. Prior Coverage
     The General Accounting Office and the Inspector General, DoD, have
     conducted multiple reviews related to the CTR Program. General Accounting
     Office reports can be accessed over the Internet at http://www.gao.gov.
     Inspector General, DoD, reports can be accessed over the Internet at
     http://www.dodig.osd.mil/audit/reports. The following previous reports are of
     particular relevance to the subject matter in this report.

General Accounting Office

     GAO Report No. NSIAD-00-40 (OSD Case No. 1942), “Cooperative Threat
     Reduction: DoD’s 1997-98 Reports on Accounting for Assistance Were Late
     and Incomplete,” March 15, 2000

     GAO Report No. RCED/NSIAD-00-82, “Nuclear Nonproliferation: Limited
     Progress in Improving Nuclear Material Security in Russia and the Newly
     Independent States,” March 6, 2000

     GAO Report No. NSIAD-99-76 (OSD Case No. 1756), “Weapons of Mass
     Destruction: Effort to Reduce Russian Arsenals May Cost More, Achieve Less
     Than Planned,” April 13, 1999

     GAO Report No. NSIAD-97-218 (OSD Case No. 1414), “Cooperative Threat
     Reduction: Review of DoD’s June 1997 Report on Assistance Provided,”
     September 5, 1997

     GAO Report No. NSIAD-97-101 (OSD Case No. 1308), “Cooperative Threat
     Reduction: Status of Defense Conversion Efforts in the Former Soviet Union,”
     April 11, 1997

     GAO Report No. NSIAD-97-84 (OSD Case No. 1290), “Weapons of Mass
     Destruction: DoD Reporting on Cooperative Threat Reduction Assistance Has
     Improved,” February 27, 1997

     GAO Report No. NSIAD-96-222 (OSD Case No. 1207), “Weapons of Mass
     Destruction: Status of the Cooperative Threat Reduction Program,”
     September 27, 1996

Inspector General, DoD

     Inspector General, DoD, Report No. D-2000-176, “Defense Enterprise Fund,”
     August 15, 2000




                                       27
Appendix C. Salvage Value of Submarine
            Scrap Material
   The CTR Program contracted to destroy 17 Russian SSBNs and planned to
   destroy 14 additional SSBNs. Based on the amount and types of scrap metal in
   the SSBNs, Russia could sell the scrap for about $41.7 million. The scrap
   material to be salvaged from the Delta-class SSBNs is worth approximately
   $36.2 million, including $15.1 million from the Delta I-class, $6 million from
   the Delta II-class and $15.1 million from the Delta III-class. Destruction of the
   Typhoon-class SSBNs could provide about $4.4 million in revenue from the sale
   of scrap; however, DTRA did not have complete data on the types and
   quantities of metals in those submarines. There was also one Yankee-class
   SSBN that produced approximately $1 million worth of salvaged metal when it
   was destroyed.

   The following tables summarize the types, quantities, and values of the scrap
   material by submarine class. Prices were obtained from Mill Prices, London
   Metal Exchange, Metalprices.com, RecycleNet Scrap Metals Index, and USA
   Specialty Scrap Processor on specific days between May and June 2000.
   Because metal prices fluctuate, the proceeds from selling the scrap would
   depend on market conditions at the time of sale. Also, net proceeds could be
   affected by shipping costs. Values in the tables were calculated using precise
   weights and unit prices. Because of rounding, multiplying metric tons and price
   per metric ton may not result in the precise value shown in the tables. Details
   can be provided on request.

                   Table C-1. Scrap Value of Delta I -Class SSBNs

                                               Metric Tons    Price
                   Scrap Item                    (MT)        Per MT        Value
           Aluminum alloy                           64       $1,145    $     73,280
           Brass                                    44          617          27,161
           Bronze                                   42          617          25,926
           Copper                                   79        1,724         136,157
           Copper cable                            132        1,724         227,502
           Copper-nickel                            40        2,404          96,178
           Ferrous metal                        3,570             92        330,211
           Melchior*                                30        3,109          93,265
           Stainless steel                         130          215          27,958
           Titanium alloy                          120        2,756         330,690

             Total per submarine                   4,251               $ 1,368,328

           Submarines dismantled                       10              $13,683,280
           Submarines to dismantle                      1                1,368,328
                Total                                  11              $15,051,608

           *Contains 80 percent copper, 20 percent nickel.


                                                  28
      Table C-2. Scrap Value of Delta II -Class SSBNs

                                        Metric               Price
       Scrap Item                     Tons (MT)             Per MT            Value
Aluminum alloy                            70                $1,145        $    80,150
Brass                                     50                   617             30,864
Bronze                                    48                   617             29,630
Copper                                    91                 1,724            156,839
Copper cable                             176                 1,724            303,336
Copper-nickel                             40                 2,404             96,178
Ferrous metal                           4580                     92           423,632
German silver*                            36                 2,079             74,847
Titanium alloy                           114                 2,756            314,156

  Total per submarine                    5,205                            $ 1,509,632

Submarines dismantled                           3                         $ 4,528,896
Submarines to dismantle                         1                           1,509,632
     Total                                      4                         $ 6,038,528

*Contains 60 percent copper, 20 percent nickel, 20 percent zinc.




      Table C-3. Scrap Value of Delta III -Class SSBNs

                                      Metric              Price
       Scrap Item                   Tons (MT)            Per MT           Value
Aluminum alloy                           70              $1,145       $    80,150
Brass                                    50                 617            30,864
Bronze                                   48                 617            29,630
Copper                                   91               1,724           156,839
Copper cable                            176               1,724           303,336
Copper-nickel                            40               2,404            96,178
Ferrous metal                         4,580                   92          423,632
German silver*                           36               2,079            74,847
Titanium alloy                          114               2,756           314,156

  Total per submarine                  5,205                          $ 1,509,632

Submarines dismantled                       2                         $ 3,019,264
Submarines to dismantle                     8                          12,077,056
     Total                                 10                         $ 15,096,320

*Contains 60 percent copper, 20 percent nickel, 20 percent zinc.




                                                    29
     Table C-4. Scrap Value of Typhoon -Class SSBNs
                            Metric     Price
       Scrap Item         Tons (MT)   Per MT        Value
Ferrous metal               9,554      $ 92     $    883,670
Unidentified metals         4,285        -            -

 Total per submarine       13,839               $    883,670

Submarines dismantled           1               $     883,670
Submarines to dismantle         4                   3,534,680

   Total                        5               $ 4,418,350




     Table C-5. Scrap Value of Yankee -Class SSBNs
                            Metric     Price
       Scrap Item         Tons (MT)   Per MT        Value
Aluminum alloy                  26    $ 1,145   $    29,656
Copper cable                    59      1,724       101,687
Copper-nickel                  235      2,404       566,008
Ferrous metal                 3780         92       349,635
Unidentified metals             14       -            -

 Total per submarine        4,114               $1,046,986

Submarines dismantled           1               $ 1,046,986
Submarines to dismantle         0                         0

   Total                        1               $ 1,046,986




                               30
Appendix D. Program Accomplishments
   The destruction of WMD in FSU countries is an important element of the DoD
   security strategy for the 21st century. The CTR Program has helped
   FSU countries to destroy significant amounts of WMD and provided other
   assistance to those countries. CTR Program efforts have made Belarus,
   Kazakhstan, and Ukraine nuclear-free countries. * The CTR Program has
   provided equipment to FSU countries and directly assisted them in destroying
   various WMD. The CTR Directorate maintains a CTR Scorecard of WMD that
   it has destroyed, showing program accomplishments. For the June 15, 2000,
   scorecard, we tested the accuracy and support for CTR Program
   accomplishments. Those accomplishments were accurate and supported. The
   following table shows the number of weapons that FSU countries declared and
   the number destroyed with assistance from the CTR Program.


                   Weapons Eliminated with CTR Program Assistance

                                                                                        FSU
                                             Total Weapons                           Weapons
                                              Declared by          Weapons          Remaining to
                    Weapons                  FSU Countries        Eliminated1        Eliminate2

          Bombers                                   146               62                 33
          ICBM3 mobile launchers                    390                0                299
          ICBM silos                                798              365                135
          ICBMs                                   1,445              394                609
          Long-range nuclear ALCMs4                 493               66                427
          Nuclear test tunnels                      194              193                  1
          SLBM launchers                            728              256                280
          SLBMs                                     936              123                546
          SSBNs                                      48               13                 23
          Warheads                               13,300            5,014              4,282

          1
            As of June 15, 2000.
          2
            The number of weapons that need to be destroyed to meet START II requirements.
          3
            Intercontinental ballistic missile.
          4
            Air-launched cruise missiles.




   In addition to the accomplishments shown in the table, the CTR Directorate
   performed preparatory work needed to eliminate WMD. For example, the
   CTR Directorate repaired railroad lines; purchased railcars and special
   *
       All nuclear warheads have been deactivated in Belarus, Kazakhstan, and Ukraine, and
       transferred to Russia.


                                                  31
containers to transport missiles, warheads, and propellant; and repaired vessels
used to remove fuel from SSBNs. The CTR Program also improved the
security over nuclear warheads and fissile material; dismantled infrastructure
used to produce biological weapons; supported employment of former weapons
scientists; and purchased WMD. Security for nuclear warheads and fissile
material was improved by purchasing about 33,000 fissile material containers
and constructing a facility to store those containers; providing an inventory
control system; and improving perimeter security. Infrastructure of facilities
used to produce biological weapons was dismantled at Stepnogorsk, Kazakhstan.
Employment of 15,000 weapon scientists was supported through peaceful
research projects and establishing a foundation to help scientists pursue peaceful
research opportunities. The CTR Directorate also purchased 21 MiG-29 fighter
aircraft and 500 air-to-air missiles from Moldova to prevent other countries
from purchasing those weapons.




                                    32
Appendix E. Monitoring Budget Obligations
   On April 18, 2000, the Assistant Inspector General for Auditing, DoD, issued a
   memorandum to the Director, DTRA, pertaining to management of
   CTR Program obligations. Specifically, DTRA was not reviewing outstanding
   obligations for the CTR Program tri-annually, as required by a memorandum
   from the Under Secretary of Defense (Comptroller), “Quarterly Reviews of
   Commitments and Obligations,” May 14, 1996. As a result, the
   CTR Directorate did not know whether its outstanding obligations were still
   valid. The Director, DTRA, responded to the memorandum on June 29, 2000.
   He stated that DTRA was reviewing the unliquidated obligations for the
   CTR Program and that DTRA would integrate DoD requirements into the
   DTRA joint review program. According to DTRA officials, DTRA performed
   a joint review in May 2000. That review, which was limited to FY 1999 and
   FY 2000 funds, did not identify any invalid obligations. As of February 2001,
   DTRA had not completed an evaluation of the validity of FY 1994 through
   FY 1998 obligations. The April 18, 2000, memorandum from the Assistant
   Inspector General for Auditing, DoD, and the June 29, 2000, response from the
   Director, DTRA, follow.




                                     33
34
35
36
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense for Policy
  Assistant Secretary of Defense (Strategy and Threat Reduction)
     Deputy Assistant Secretary of Defense (Threat Reduction Policy)
      Director, Cooperative Threat Reduction Policy
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Inspector General, Naval Sea Systems Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Threat Reduction Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Department of State
  Coordinator of U.S. Assistance to the New Independent States




                                          37
Congressional Committees and Subcommittees, Chairman and
 Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform
House Committee on International Relations
House Subcommittee on International Economic Policy and Trade, Committee on
  International Relations




                                       38
Assistant Secretary of Defense for Strategy and
Threat Reduction Comments




                        39
Final Report
 Reference




Revised
(Page 5)




               40
41
Final Report
 Reference




Revised




Deleted




               42
     Final Report
      Reference




     Deleted




     Deleted




     Revised and
     Renumber
     A.1.




43
           Defense Threat Reduction Agency Comments
Final Report
 Reference




Revised
(Page 9)




                                44
     Final Report
      Reference




     Revised
     (Pages 9
     and 10)




45
Final Report
 Reference




Revised




               46
     Final Report
      Reference




     Revised




47
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector General
for Auditing, DoD, prepared this report. Personnel from the Office of the Inspector
General, DoD, who contributed to the report are listed below.

Shelton R. Young
Raymond D. Kidd
Evelyn R. Klemstine
Donney J. Bibb
Hugh G. Cherry
Greg W. Lewis
Michael T. Brant
Scott J. Odette
Jaime L. Dukic
